<html>
<title> - ACCELERATING NEW TECHNOLOGIES TO MEET EMERGING THREATS</title>
<body><pre>[Senate Hearing 115-847]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-847
 
                    ACCELERATING NEW TECHNOLOGIES TO
                         MEET EMERGING THREATS

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                   EMERGING THREATS AND CAPABILITIES

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 18, 2018

                               __________

         Printed for the use of the Committee on Armed Services
         
         
         
         
         
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
 
 


                  Available via http://www.govinfo.gov
                  
                  
                  
                            ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
41-257 PDF             WASHINGTON : 2020 
 
                 
                  


                      COMMITTEE ON ARMED SERVICES

  JOHN McCAIN, Arizona, Chairman     JACK REED, Rhode Island
JAMES M. INHOFE, Oklahoma            BILL NELSON, Florida
ROGER F. WICKER, Mississippi         CLAIRE McCASKILL, Missouri
DEB FISCHER, Nebraska                JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     JOE DONNELLY, Indiana
THOM TILLIS, North Carolina          MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                 TIM KAINE, Virginia
DAVID PERDUE, Georgia                ANGUS S. KING, JR., Maine
TED CRUZ, Texas                      MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina       ELIZABETH WARREN, Massachusetts
BEN SASSE, Nebraska                  GARY C. PETERS, Michigan
TIM SCOTT, South Carolina            
                                     
              
                                     
                   Christian D. Brose, Staff Director
                  Elizabeth L. King, Minority Staff 
                                Director


           Subcommittee on Emerging Threats and Capabilities

    JONI ERNST, Iowa, Chairman      MARTIN HEINRICH, New Mexico
ROGER F. WICKER, Mississippi        BILL NELSON, Florida
DEB FISCHER, Nebraska               JEANNE SHAHEEN, New Hampshire
DAVID PERDUE, Georgia               GARY C. PETERS, Michigan
TED CRUZ, Texas
TIM SCOTT, South Carolina            
                                     
                                     
                                     

                                  (ii)

  

                          C O N T E N T S



                             April 18, 2018

                                                                   Page

Accelerating New Technologies to Meet Emerging Threats...........     1

Griffin, Hon. Michael D., Under Secretary of Defense for Research     2
  and Engineering.

Questions for the Record.........................................    16


                                 (iii)


         ACCELERATING NEW TECHNOLOGIES TO MEET EMERGING THREATS

                              ----------                              


                       WEDNESDAY, APRIL 18, 2018

                  United States Senate,    
                       Subcommittee on Emerging    
                          Threats and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:32 p.m. in 
Room SR-232A, Russell Senate Office Building, Senator Joni 
Ernst (chairman of the subcommittee) presiding.
    Committee members present: Senators Ernst, Fischer, Perdue, 
Heinrich, and Peters.

            OPENING STATEMENT OF SENATOR JONI ERNST

    Senator Ernst. Good afternoon. The Subcommittee on Emerging 
Threats and Capabilities meets today to receive testimony from 
Dr. Michael Griffin, Under Secretary of Defense for Research 
and Engineering, on accelerating new technologies to meet 
emerging threats.
    Welcome, Secretary. It is good to have you here.
    The National Defense Strategy [NDS] acknowledges that our 
increasingly complex security environment is defined by rapid 
technological advancements, which have the potential to change 
the very character of war. These technologies include advanced 
computing, Big Data analytics, artificial intelligence, 
autonomy, robotics, directed energy, hypersonics, and 
biotechnology.
    Moreover, their development is increasingly dispersed, 
expanding both to near-peer competitors and other actors with 
the means to use these technologies against our warfighters.
    These technologies also represent major opportunities for 
our own forces, and innovation has always been a major strength 
of the Department of Defense's [DOD] research and engineering 
enterprise, which includes the DOD laboratories and 
organizations like DARPA and the Strategic Capabilities Office.
    However, getting these technologies in the hands of our 
warfighters can sometimes be challenging for the Department of 
Defense, which has struggled to bridge the so-called ``valley 
of death'' for new technologies. This valley refers to the 
space between the research and engineering community and the 
acquisition community, which are responsible for fielding 
operational systems.
    In his confirmation hearing, Secretary Griffin testified 
that this transition is the ``hardest problem we have.'' I will 
look to Secretary Griffin to understand how he will use his own 
newly established position to help bridge this gap.
    The fielding of these critical new technologies contained 
within the National Defense Strategy demands urgent attention 
and new approaches to ensure that our forces are postured to 
fight and win. Broadly, I look to Secretary Griffin to see how 
he plans to fulfill his charge as chief technology officer for 
the Department of Defense to sustain and expand U.S. 
technological superiority in the future.
    Specifically, I hope to understand specific examples of 
research and technology efforts aimed at ensuring our forces 
are organized, trained, and equipped to succeed in our 
increasingly complex environment.
    Opening comments, Senator Heinrich?

              STATEMENT OF SENATOR MARTIN HEINRICH

    Senator Heinrich. Let me start by thanking Senator Ernst 
for holding this important hearing on technology transfer and 
the ways that we can move technologies and systems more rapidly 
into the hands of our operational forces.
    Welcome, Secretary. It has been almost 2 months since you 
were confirmed for this job, so you may not have fixed 
everything yet, but we hope that you are making good progress.
    I hope that today's hearing will help us better understand 
the barriers to the smooth transition of next-generation 
technologies, whether they are from the funding point of view, 
legal, regulatory, cultural, or other things that we have not 
thought about.
    We know that we are in a race to build future technologies 
and systems that our military will need to execute its missions 
against peer threats as well as emerging threats. We also know 
that the United States is still home to the world's most 
innovative companies, small businesses, research universities, 
and government labs.
    The State of New Mexico alone is proud to host two national 
security laboratories, the Air Force Research Laboratory, White 
Sands Missile Range, and a number of high-tech small 
businesses, each employing some of the best and brightest minds 
in the country.
    Yet, one of our Nation's biggest challenges remains in 
determining how we can best connect those innovators to the 
real current and future challenges facing our military, and how 
to move the best new technologies into the hands of our 
warfighters as quickly and effectively as possible.
    All of the members of this committee have heard frustrating 
stories of companies with great ideas or universities and 
government labs performing cutting-edge research that cannot 
seem to get traction and fight through the Pentagon's arcane 
and bureaucratic procurement and funding processes, only to get 
stuck in that valley of death that Senator Ernst spoke about.
    This committee has taken a number of steps to help 
transition technologies, including strengthening science and 
technology prototyping efforts; emphasizing weapons of the 
future, like directed energy; supporting the Small Business 
Innovation Research program; and trying to cut back on the red 
tape and bureaucracy that slows this process. But I certainly 
believe we can do more.
    Tackling the issues that prevent the transition of 
technologies is a key emphasis of your work, Dr. Griffin, and 
you have an excellent opportunity to do so as our Nation's 
Under Secretary for Research and Engineering.
    Dr. Griffin, I hope we can hear today your early estimate 
of the biggest challenges to effectively transition technology 
and learn what steps you are beginning to take to address them 
and how we can help. I also look forward to hearing what 
hurdles you are encountering in terms of setting up your 
organization and staffing in the Pentagon, and deconflicting 
authorities with the services and other parts of the Pentagon.
    Finally, I hope to learn what steps this committee and 
other committees in Congress can take to assist in these 
efforts. Our military's technological edge may not depend 
solely on your success, but your success can greatly alter the 
ability of our military to stay ahead of our adversaries.
    I look forward to your testimony and learning more about 
how we can help.
    Senator Ernst. Go ahead, Secretary. Thank you.

   STATEMENT OF HON. MICHAEL D. GRIFFIN, UNDER SECRETARY OF 
              DEFENSE FOR RESEARCH AND ENGINEERING

    Dr. Griffin. Chairwoman Ernst, Ranking Member Heinrich, 
Senator Peters, Senator Fischer, Senator Perdue, thank you for 
being here. I really appreciate this opportunity to talk to you 
about these issues. I am going to offer a very brief opening 
statement and ask that you submit my written testimony for the 
record.
    Senator Ernst. Without objection.
    Dr. Griffin. So the recognition of the erosion of U.S. 
technological superiority, which was once unquestioned in the 
world, is what led the Congress to establish the position that 
I now hold, the Under Secretary of Defense for Research and 
Engineering. Our mission is to ensure that we, if necessary, 
reestablish and then maintain our technical advantage. I am 
honored to be here today.
    Now, frankly, my involvement with the national security 
community is of long standing, and so I feel that I come to 
this position reasonably well-versed in the threats that we 
face, and I am, therefore, concerned.
    We are in constant competition, and the pace of that 
competition is increasing. In a world where everyone pretty 
much today has equal access to technology, innovation is 
important, and it will always be important, but speed becomes 
the differentiating factor. How quickly we can translate 
technology into fielded capability is where we can achieve and 
maintain our technological edge. It is not just about speed of 
discovery. It is about speed of delivery to the field.
    So this is a key tenet of my mission as Under Secretary. My 
organization will focus on closing the gap on current and 
emerging threats, on driving the disruptive innovation that 
provides the technical dominance on the scale and timeline 
called for in the National Defense Strategy.
    In this role, I fully intend to establish the technical 
direction for the Department of Defense. This is more than just 
recommending the path forward. My organization must ensure that 
the future force has what it needs by working with warfighters 
to develop new concepts of operation through mission analysis 
and experimentation.
    I believe that it is critically important for the DOD to 
utilize intelligence products, technology forecasting, and our 
own analysis to inform decisions on where we will invest, what 
we will prototype, what experiments we will do, and what 
emerging capabilities and concepts of operation will help us to 
succeed. To this end, we have established a strategic 
intelligence analysis cell within the organization that will 
help us do that.
    I will focus on establishing processes and methods to drive 
effectiveness and affordability by examining our acquisition, 
testing, and sustainment processes in the system design phase 
by setting and adhering to open architectures and interface 
standards while implementing good system engineering and cyber 
resiliency. Ultimately, I plan to establish and embrace a 
collaborative culture focused on piloting new acquisition 
pathways for speed and providing capability to the future 
force.
    The department continues to push research into new 
technologies such as autonomous and unmanned systems, 
artificial intelligence, biotechnology, microelectronics, and 
cyber warfare, both offense and defense. These technology areas 
are not just important to the Department of Defense. They are, 
in fact, the focus of global industry, something we must learn 
to leverage.
    The department is not short of innovators. We are short of 
time, and we lack expertise in adapting commercial market 
advances to military needs. We need to strike a balance between 
bringing in new technology and getting current technology out 
to the field. We need to deal with conquering Senator Ernst's 
valley of death between innovation and real applications.
    One crucial step in this is a comment that the Deputy 
Secretary made recently. He said, and I am quoting, ``Everyone 
wants innovation, but innovation is messy. If the department is 
really going to succeed at innovating, we are going to have to 
get comfortable with people making mistakes.''
    Increasing the use of prototyping, demonstration, and 
experimentation will help the department more rapidly mature 
technology to assess the impact that innovative technologies 
can have on the future force. Building prototypes and testing 
them with operators allows the department to speed innovation 
by driving down technical and integration risk. It also enables 
us to refine requirements, evaluate new concepts, and get 
warfighter feedback before we commit to a major program.
    Those are the obvious benefits. The less obvious benefits 
include stimulating industry design teams with new challenges, 
contributing to new methods of manufacturing, and increasing 
the likelihood of a successful program by ensuring that we 
better understand what the requirements are to deliver a real 
system.
    While our adversaries are presenting us with the challenge 
of a sophisticated, evolving threat, we are prepared to meet 
this challenge and restore the technical overmatch of the 
United States Armed Forces through focus, innovation, and rapid 
delivery to the field.
    Thanks again for this opportunity to testify before you on 
these important issues. I do look forward to your questions.
    [The prepared statement of Dr. Griffin follows:]

                 Prepared Statement by Dr. Mike Griffin
    Chairwoman Ernst, Ranking Member Heinrich, and distinguished 
members of the Subcommittee, thank you for the opportunity to discuss 
technology transition and what the Department of Defense can do to 
mitigate the infamous ``Valley of Death''.
    The Department of Defense faces a continued challenge--balancing 
force structure, operational readiness and modernization in an 
increasingly complex environment. DOD needs to develop new ways to 
achieve innovation at what Secretary Mattis refers to as ``the speed of 
relevance.'' This requires a need to move fast to wring out problems 
through experimentation and prototyping with a willingness to learn 
from failure rather than design to perfection.
    In addition to an increased emphasis on prototyping and 
experimentation to both identify innovative solutions to our 
warfighting dilemmas and facilitate their development and transition to 
a fielded operational capability, we are developing tools that will 
identify promising, emerging technologies and capabilities to integrate 
current Department owned models and simulation environments to evaluate 
their potential, in conjunction with the Services, in Joint simulation 
environments. Our global technology watch/horizon scanning effort uses 
data analytics from a wide range of academic, research, and private and 
public investment data to identify current promising technologies, and 
forecast emerging technologies that the Department must be aware of to 
support innovative solutions to regain/maintain our technological edge 
in a highly competitive global environment. Additionally we are 
developing a capability to integrate validated Service and threat 
models into a Joint simulation environment so that we can conduct high 
fidelity evaluations of these potential capabilities in a mission level 
scenario so that the Department can gain a better understanding of how 
these capabilities will work in support of and improve the warfighting 
capability of existing service programs and force structure.
    We are grateful to the members of this Committee for your sustained 
support of our warfighters, your support of our laboratories and 
research, development and engineering centers and your continued 
commitment to ensure that funding is available to provide our current 
and future warfighters with the technology that enables them to defend 
America's interests and those of our allies around the world.
                          strategic landscape
    The United States still faces a complex and growing array of 
security challenges across the globe as described in the National 
Defense Strategy.
    Many factors determine whether or not a technology transitions from 
the laboratory to the ultimate consumer--the warfighter. These factors 
include technology maturation, performance, affordability (of the 
technology and/or the system), manufacturability, available funding, 
schedule, continued need and/or support from program managers and 
perhaps most importantly, sustained priority for the technology/system 
for the Department.
    The future force will be smaller, yet must remain capable of 
conducting the full range of operations on land, including prompt and 
sustained land combat as part of large, multi-phase joint and 
multinational operations. The future operational environment is likely 
to have several characteristics that will have a significant impact on 
land force operations in the future, including increased momentum of 
human interaction and events, potential for overmatch, proliferation of 
weapons of mass destruction, increasing importance of the space and 
cyberspace domains, and demographics and operations among populations 
in complex terrains. While the future force will become smaller and 
leaner, its great strength will lie in its increased agility, 
flexibility and ability to deploy quickly, while remaining 
technologically advanced.
    While adversaries continue to invest in technology to counter or 
evade our strengths, insufficient resources and force modernization 
place at risk our ability to overmatch opponents. To mitigate these 
risks, the Department must maintain high levels of readiness while also 
investing in future force modernization. To maintain a decisive 
advantage over our enemies, the DOD emphasizes the integration of 
advanced technologies with skilled warfighters.
    Despite these great pressures, the Department continues to protect 
its S&T investments critical to identifying, developing and 
demonstrating technology options that inform and enable affordable 
capabilities for the warfighter.
                  a balanced approach to modernization
    It is the Department's responsibility to address both current and 
emerging threats to ensure every warfighter deployed is equipped to 
achieve decisive overmatch regardless of the situation. As is often 
stated, we never want to send our Soldiers, sailors, airmen, or Marines 
into a fair fight. To ensure a balanced modernization strategy is 
paramount, even under these austere fiscal conditions, to ensure we 
create long-term investment road maps across all our investment 
portfolios.
    We must focus investments and develop concepts and technology to 
become more lethal, expeditionary, and agile, with greater capability 
to conduct decentralized, distributed, and integrated operations. The 
Department also focuses on decisions and priorities regarding current 
technology to maintain overmatch, while driving critical capability and 
technology needed for the future.
    Innovation and technology continue to reshape the strategic 
environment, multiplying and intensifying the effects that even minor 
actors are able to achieve. Rapidly advancing technologies in many 
fields may become critical to military effectiveness; examples include 
autonomous systems, disruptive energetics, immersive training 
environments, quantum computing, synthetic biology, alternative power 
and energy solutions and unprecedented levels of networking 
capabilities. The Department will continue to develop countermeasures 
to future threat capabilities and pursue technological opportunities. 
However, enemies and adversaries will counter U.S. technological 
advantages through cover, concealment, camouflage, denial, deception, 
emulation, adaptation or evasion. Finally, understanding how humans 
apply technology to gain capabilities and train will become as 
important as the technologies themselves.
    The technology playing field is changing. Important technology 
breakthroughs in many fields are now driven by commercial and 
international concerns. Our strategy acknowledges the imperative of a 
global, networked and full-spectrum joint force. It responds to the new 
fiscal environment and emphasizes new ways of operating and partnering. 
In a world where all have nearly equal access to open technology, 
innovation is a critical discriminator in assuring technology 
superiority.
    The Department has identified enduring capability challenges that 
are necessary to conduct future operations to prevent, shape, and win 
conflicts, and are used to frame modernization.
    The nature of research and engineering (R&E) is such that 
continuity and stability have great importance. Starting and stopping 
programs prevents momentum in research and lengthens the timelines for 
discovery and innovation. While the R&E enterprise gains valuable 
insight from the intelligence community, this only represents one input 
to the enterprise and likely describes the most probable future. To 
have a balanced outlook across all the possible futures requires that 
the portfolio also address the ``possible'' and ``unthinkable.''
                        solving current problems
    As noted before, it is the expertise resident within our R&E 
enterprise that enables our ability to respond to warfighter urgent 
needs in a timely and effective manner. The familiarity of our 
workforce to the operational environment helps them to quickly assess 
the ability for commercial solutions to meet the need (either with or 
without modifications) and/or identify developing capability that could 
address the immediate needs of the warfighter.
    A strong organic research and engineering as well as technical 
workforce is critical to the Department's effort to retain the U.S.'s 
technical advantage over our adversaries. A major challenge facing the 
Department, as well as industry in general, is identification and 
recruitment of technical professionals with specific skills, 
experience, and knowledge in advanced technologies. In order to address 
technical workforce challenges and continue to close our capability 
gaps, we are leading many initiatives to enable the Department to hire 
people with critically needed technical skills as well as equip our 
current workforce with these skills.
    Furthermore, DOD must build a human capital development program 
incorporating both traditional and non-traditional STEM careers paths 
that put the right technical talent and innovative talent in touch with 
the warfighter. This requires building tailored programs that create 
the necessary skills and social networks, develop the right risk taking 
culture and marries it with the opportunities to experiment. This is as 
simple as linking recipients of DOD STEM scholarship funding starting 
with undergraduate education to research laboratories and academic 
institutions through postdoctoral fellowships. To that end DOD 
increased STEM education funding beginning in fiscal year 2019 to 
support DOD initiatives in Artificial Intelligence, Microelectronics, 
Hypersonics, and Biotechnology.
                      driving down technical risk
    In this time of decreased modernization funds, it is incumbent upon 
the R&E enterprise to drive down the technical risks associated with 
developing new capabilities.
    Congress has supported the Department over the last few years. One 
such way is by passing legislation in the fiscal year 2017 NDAA, 
section 901 establishing the USD(R&E) with a focus on maintaining 
technology superiority. The USD(R&E) focus will drive down technical 
and integration risk through the extensive use of prototyping and 
experimentation, gain warfighter feedback to better inform 
requirements; to ensure that concepts going forward into acquisition 
not only provide the needed capability, but are timely and affordable.
    Another was fiscal year 2017 NDAA language to ensure that all major 
defense acquisition programs have a modular open design, to the maximum 
extent practicable, and a technology refresh strategy built in, prior 
to them being permitted to move forward into development. In response 
to the Acquisition Agility Act, the DOD employed a cross-functional 
team that developed policy changes, started establishing a body of 
practice, and began training acquisition program staff to assist the 
workforce in implementing more rapid/agile acquisition of capability 
for the warfighter. Program-specific examples include:
    <bullet>  Blue Guardian (Air Force Research Laboratory (AFRL)-led 
program). Due to the adoption of Modular Open Systems Approach (MOSA) 
in the USAF Open Mission Systems (OMS) architecture, the Air Force was 
able to support the rapid acquisition of advanced C4ISR capabilities 
faster and cheaper than existing methods.
    <bullet>  Army Common Operating Environment (COE). The Army has 
adopted MOSA for its mission command systems, COE, to provide a common 
foundation of shared components and standards across key systems, 
allowing the Army to design, develop and deliver capabilities more 
effectively than the previous method (of using three different systems 
having different designs and standards).
    <bullet>  Navy Submarine Warfare Federated Tactical Systems 
(SWFTS). Due to the adoption of modularity and open business practices, 
Navy common submarine combat system programs, collectively known as 
SWFTS, were able to speed the delivery of advanced technologies and 
capabilities while driving down integration risks and life-cycle costs 
across multiple submarine classes.
    By moving toward modular, open designs for architectures in this 
and other areas, we are creating systems that are easily upgradeable as 
new threats emerge. We are also making it easier for small, innovative 
businesses to contribute their technologies.
           identifying and mitigating system vulnerabilities
    New theaters present new challenges--we anticipate facing future 
operations against technically savvy opponents who will challenge our 
military superiority. This effort looks at vulnerabilities in both 
individual technologies and systems, providing timely feedback to 
technology and materiel developers in order to increase awareness of 
potential risks (in context of future scenarios and threats) and to 
identify opportunities for technology and/or employment improvements. 
These efforts have the potential for significant cost savings, as 
vulnerabilities are mitigated before system designs are finalized and/
or systems are fielded. A key aspect of this initiative is red teaming, 
challenging the systems with an emulated enemy--one who can use 
innovative and adaptive methods to disrupt the planned capability. This 
has proven to be an effective method to tease out inadvertent seams 
that result from the introduction of new technologies and systems into 
operational use.
    One way we are accomplishing this is through Red Teaming 
activities, in which we provide technologists and systems developers 
with realistic and challenging scenarios where they can employ and 
assess their solutions prior to acquisition. These activities are 
envisioned to take emerging systems and prototypes out of the lab and 
into ``messy'' environments, incorporating varied operational and 
increasingly complex scenarios against capable adversaries, as well as 
experienced warfighters and security forces that provide real-time user 
feedback on design and performance. In these settings, technology 
solutions are examined from multiple perspectives--including systems 
integration, logistics, training and adaptability risks--in order to 
expose potential employment vulnerabilities and identify needed 
improvements early on.
            understanding the global technology environment
    Understanding the current and projected threat environment is 
essential as we develop future capabilities. To foster greater 
innovation within the R&E enterprise, we are identifying concepts and 
conducting technology-based assessments about what S&T will look like 
in the deep future (the 2030-2040 timeframe) and how this will affect 
both the Department and our adversaries. We are taking a multipronged 
approach that includes brainstorming from government, industry and 
academia, and red teaming of potential technology concepts. At the 
heart of this initiative lies a commitment to solid analysis and a 
focus on bringing fresh ideas from a wide community, including 
innovative thinkers who haven't traditionally been a part of the 
planning process.
    Our red teaming/vulnerability analysis activities are fostering 
closer ties between S&T and the intelligence community, a partnership 
that is increasingly important as we look beyond the recent wartime 
period into a more complex and unknown future.
                               conclusion
    As the Department's R&E enterprise continues to identify and 
harvest technologies suitable for transition to our force, we aim to 
remain ever vigilant of potential and emerging threats. We are 
implementing a strategic approach to modernization that includes an 
awareness of existing and potential gaps; an understanding of emerging 
threats; knowledge of state-of-the-art commercial, academic, and 
government research; as well as a clear understanding of competing 
needs for limited resources. The Department will sharpen its research 
efforts to focus upon those core capabilities it needs to sustain while 
identifying promising or disruptive technologies able to change the 
existing paradigms of understanding. Ultimately, the focus remains upon 
our warfighters; we consistently seeks new avenues to increase the 
warfighter's capability and ensure their technological superiority 
today, tomorrow, and decades from now. Our mission is not complete 
until the right technologies provide superior, yet affordable, 
overmatch capability for our Soldiers, sailors, airmen, and Marines.
    All of the efforts described above would of course be impossible 
without the continued support of our partners in Congress. I would 
again like to thank the subcommittee for your long-standing support of 
the incredibly important work of the Department's R&E enterprise. I am 
extremely proud to represent the men and women who have dedicated their 
lives to provide our warfighters with the capabilities to operate in 
any environment and situation. Thank you. I would be pleased to answer 
any questions you have.

    Senator Ernst. Wonderful. Thank you very much, Mr. 
Secretary.
    We will go ahead and get started with the questions, and, 
hopefully, we will get a couple rounds in.
    We were just talking a minute ago about the National 
Defense Strategy. It was recently released by Secretary Mattis, 
and it focused on competition with near-peer adversaries.
    Dr. Griffin, how do you envision your position helping DOD 
to address the technical shortfalls in specific fields like A2/
AD [Anti-Access/Area Denial] and other high-end capabilities 
being developed by our near-peer challengers, like China and 
Russia? What can we do there, in your position?
    Dr. Griffin. Our adversaries have taken advantage of what I 
have referred to as a holiday for the United States. It has not 
been exactly that, but with the fall of the Berlin Wall in 
1989--I was in the Pentagon when the wall came down and when 
the Soviet Union broke up. We had won the Cold War, and we had 
no major adversary in the world. We declared a peace dividend, 
and we felt we had won.
    The winners never learn anything, and the losers always do. 
So over the course of the 25 years since that has happened, 
China has understood fully how to be a superpower. We gave them 
the playbook, and they are executing. Russia, after a period of 
very difficult times for them, is now resurgent in the world of 
global and great power competition. These are the things that 
our National Defense Strategy calls out.
    We have been occupied for 15 years in the Middle East 
dealing with the urgent problem of terrorism and nonstate 
warfare, and other very, very difficult problems, but problems 
which are not existential for the United States. They are 
difficult, important and concerning, but they are not 
existential.
    Our global power adversaries are existential threats, and 
this is what the National Defense Strategy is saying. I am 
tremendously pleased with that strategy. I regret to say I did 
not offer a contribution to it, but I am delighted with what 
they have put forth, and I think that should be our bible.
    Senator Ernst. Then in your position, how do we use the 
expertise that you have to catch up to those near-peer 
adversaries?
    Dr. Griffin. Well, in certain areas, like you mentioned, 
anti-access/area [A2/AD] denial, China has fielded or can 
field, is close to fielding, hypersonic delivery systems for 
conventional prompt strike that can reach out thousands of 
kilometers from the Chinese shore and hold our carrier battle 
groups or our forward-deployed forces on land that we have 
bases, can hold those power groups at-risk. We, today, do not 
have systems that can hold them at-risk in a corresponding 
manner, and we do not have defenses against those systems.
    Should they choose to employ them, we would be, today, at a 
disadvantage. It is among my very highest priorities to erase 
that disadvantage, creating our own systems to hold them at-
risk and to provide defense.
    We will never win a man-to-man conflict with the Chinese, 
should that come about. We can only win by employing technical 
overmatch.
    So, for example, in the areas of missile defense or air 
defense, or even with our ground forces, in order to deal with 
things like swarming drone attacks, we have to finish the 
development of directed energy weapons, which started and some 
years ago decided we did not really need. Well, we need to 
decide that we really do need them and fund them to completion.
    We need to have 100-kilowatt class weapons on Army theater 
vehicles. We need to have 300-kilowatt class weapons on Air 
Force tankers. We need to have megawatt class directed energy 
weapons in space for space defense. These are things that we 
can do over the next decade if we can maintain our focus.
    Senator Ernst. I appreciate that. We do need to maintain 
our focus.
    With that, we will go to Senator Heinrich.
    Senator Heinrich. Secretary, yesterday, you testified 
before the House Armed Services Committee, and I saw a little 
bit of that. I believe you said that the powers afforded to you 
in this new position are more like ``broad and sweeping powers 
to offer advice.''
    Can you tell me a little bit more about exactly what you 
meant by that? And what do you think should be your authority 
and relationship with service research and engineering programs 
and activities?
    Dr. Griffin. Well, that is a leading question, sir, but I 
will take a swing at it.
    Senator Heinrich. It was meant to be.
    [Laughter.]
    Dr. Griffin. Yes, sir. The authorities that the USD (R&E) 
[Under Secretary of Defense for Research and Engineering] has 
do not include the ability to direct funding. They do not 
include the ability to direct programs or program direction. 
So, therefore, the office is persuasive or advisory in nature, 
and I think that is what I said yesterday. If not, it is what I 
should have said.
    So, let me be clear. I think that in the NDAA 2017 and 2018 
legislation that was passed, I personally believe it was a very 
good idea to delegate programs back to the services to run on a 
day-to-day basis, except for those few programs that the 
Secretary has determined should be held at the OSD [Office of 
the Secretary of Defense] level. I am an unabashed supporter of 
that plan. OSD, generally speaking, is not the place you want 
to run programs.
    However, the industry analogy, which I have used, might be 
that OSD is what you might call in industry the vice president 
for programs, for all programs. You are not running the 
program, but if a given program or a given program manager gets 
off track, in industry, there is no fuzz on this. There is a 
vice president somewhere who will say, ``What you are doing is 
not okay. I am not replacing you. You still have the program, 
but you cannot do what you are doing, and you are going to do 
this other thing instead, and the reason is because I am the 
boss and I said so.''
    In industry, one's very existence depends upon being able 
to do that. The wrong decisions can put you out of business. I 
have run two companies, and we did not run them on the 
committee system.
    That situation, I think, gives you a flavor of the kind of 
authority that we need to have. We do not in OSD, in my 
opinion, need to be running programs. But we need to be able to 
control the funding and the overall direction of those programs 
in a way that is collaborative, but in the end, when a decision 
is made, the decision is made.
    Senator Heinrich. I think we agree that you should not be 
meddling in the day-to-day management, but we want to make sure 
that the strategic direction that you set is how these programs 
execute.
    I am also concerned that the services have not always 
prioritized the modernization of the testing infrastructure, 
which is incredibly important if we are going to maintain our 
position in the world.
    If you just look at one example that I am familiar with, 
White Sands Missile Range went 18 years straight without 
receiving a single milcon [military construction] project. It 
is not unusual--White Sands is not alone in seeing that sort of 
dynamic among our test ranges.
    So I am curious, how can you help to ensure that Test 
Resource Management Center is not only planning for testing but 
planning to make sure that we are maintaining our test ranges, 
that we are investing milcon in them, and that we are not 
ignoring the center's imprtance and standing?
    Dr. Griffin. Senator Heinrich, you have hit one of my hot 
buttons. I was just speaking about conventional prompt strike 
and hypersonics and the need to develop both offensive and 
defensive capabilities.
    I would tell you right now that DARPA [Defense Advanced 
Research Projects Agency], which reports to me and has done 
some of the most significant hypersonics work in the country, 
has basically one wind tunnel that they can use for hypersonic 
research today. It is at NASA Langley Research Center in 
Virginia. This is an unacceptable situation.
    Regarding your example of the test range at White Sands 
that has not received milcon funding in 18 years, I could tell 
that same story for about 20 other test ranges and test 
facilities, and 20 is an undercount.
    The Nation must invest in renovating our test facilities, 
our research facilities, and bring them up-to-date. We must do 
that.
    Now, it is not glamorous. But when I come to you with a 
budget that asks for money to renovate our test facilities, I 
really want you to take me seriously. It is not nice to have 
bad conditions at test facilities. We really need to bring 
these things up-to-date.
    Senator Heinrich. These are fundamentals.
    My time is up, but I look forward to continuing----
    Dr. Griffin. I am sorry. I was possibly too long-winded, 
but you asked me things that I am passionate about.
    Senator Heinrich. We are going to have a couple rounds, I 
hope.
    Senator Ernst. Yes, absolutely. Thank you.
    Senator Perdue?
    Senator Perdue. Thank you, Dr. Griffin. I appreciate you 
being willing to take on this job.
    Dr. Eric Schmidt yesterday testified that, if there were 
one variable to solve for, it would be speed. You mentioned 
speed this morning several times. I just got back from a trip 
to China, and I saw firsthand how they are leapfrogging entire 
industries.
    The Chinese Government put $152 billion into creating a 
chip industry. They bypassed their entire telecom industry. 
There are no hardwired cables, et cetera. It is all moving to 
5G.
    We saw corporate businesses and their research aligned with 
defense research all under one umbrella inside the Chinese 
structure.
    The way they are set up is entirely different from ours. 
They are able to build things and move more quickly than we are 
in a democratic society.
    Secretary Mattis said constrained budgets and acquisition 
regulations have limited our ability to keep pace with rapid 
changes that sustain our competitive advantage.
    Combine that with the Defense Innovation Unit-Experimental 
[DIUx] releasing its report recently, it really concerns me 
because of having seen the Chinese ability to move very 
rapidly, and our ability to build a 2-foot tall set of 
requirements to buy a new pistol for the Army.
    So the question I have for you is, within our DOD 
procurement system, our DOD requirements system, and the 
ability to innovate within a system that has been choked up by 
all the things that you are talking about--China is buying 
technology from us; they are stealing technology from us; and 
they are innovating on their own today at a level that we have 
not seen.
    When you look at the two domains, in space and in cyber, 
particularly, I am worried about whatever advantage we might 
have dreamed we had may have dissipated already.
    So my question is, in that environment, how do we develop, 
from your point of view in R&D--I hear infrastructure first. I 
get that. What are the ways, in integrating with business--you 
read the Defense Innovation Board report. What ways can we 
accelerate the innovation that we obviously need to be able to 
defend our country in this new technical world that we live in?
    Dr. Griffin. That is a great question. Of course, I 
testified yesterday with Dr. Schmidt, and we did not pre-
coordinate our views, but he and I are about as closely aligned 
as I think two people from very different backgrounds could be 
about what is needed.
    So one of the things that we have both said is that, and I 
will use my words, we cannot punish people who take risks and 
break something. We should reward them.
    I will offer the view, which may not be popular, that it is 
not actually, generally speaking, our laws and regulations that 
restrain us from moving more quickly. It is the cultural view 
of our--and it is not even just within the Department of 
Defense. I saw many of these same things at NASA, and I worked 
in the intelligence community.
    It is the view that we have taken in recent decades that 
any mistake is made in the course of a new development is a 
punishable offense. So, therefore, any rational program 
manager, whether wearing colonel's eagles or SES civilian, will 
do everything possible not to allow any step of the development 
to turn out wrong because they will be punished.
    Senator Perdue. Do you think the new generation of military 
leadership at the top recognize that?
    Dr. Griffin. I think they do. The people that I work with 
every day recognize the cultural barrier that avoidance of risk 
has created for us. But I need your help as legislators to make 
sure that our people understand that failure is not okay, but 
failure is failure to reach the end goal.
    If I fail to give you a 100-kilowatt laser weapon for an 
MRAP within a few years, you should ding me for that. You 
should not ding me if we go out into the desert and try a 
couple laser concepts, and one of them does not work, and we 
have to back up and try another. That is not failure. Failure 
is if I do not get to the goal.
    All too often, we punish program managers because they take 
something out to the desert and they flight test it and it 
breaks.
    Until I was 40, I was closely involved with hardware 
development. I will tell you, it is really hard to get it right 
the first time.
    You have to have that freedom to take on new challenges, 
take new risks, let things break, figure out why, and move on 
to the next step without punishing the young folks who want to 
learn all those lessons.
    There is no more critical step than that to me, sir. That 
is how we can establish a new culture of speed and innovation.
    Senator Perdue. Is that inside DOD? It is also in the 
procurement area as well, right?
    Dr. Griffin. It is in the procurement area. It is inside 
DOD. It is really all across government. It really is.
    You have given us a lot of new legislative permissions. And 
you know what? As Eric Schmidt said yesterday, you should ask 
us to keep count of the number of times we are using other 
transaction authorities instead of the regular FAR [Federal 
Acquisition Regulation]. You gave us permission to use them. 
You should require us to do so. You should not allow us to fall 
back on what we are culturally familiar with.
    Another point that I will make, and I realize I am over 
time, another point that I will make is that the whole purpose 
of carving out or separating R&E [Research and Engineering] and 
A&S [Acquisition and Sustainment] from the former acquisition, 
technology, and logistics was to provide an organization which 
could do advanced development before it got into the major 
production cycle.
    So let us make our mistakes. Let us learn our developmental 
lessons when it does not cost much. Let's not learn it when the 
carrier is already in production. I am not picking on carriers. 
You pick your system. Let's not learn it when the system is in 
production. Let's learn it while people are still 
experimenting.
    That is a critical step. I am sorry I have overstayed.
    Senator Ernst. That is okay. Good discussion. I appreciate 
it.
    Senator Perdue. Thank you, Madam Chair.
    Senator Ernst. Senator Peters?
    Senator Peters. Thank you, Madam Chair.
    Thank you, Dr. Griffin, for being here. Your discussion 
about failure as part of the process, as you are talking, I am 
just reminded of Thomas Edison. I cannot remember the exact 
quote, but I think he said that he spent most of his career 
with failed experiments. But the ones that worked were pretty 
big and changed the world.
    Dr. Griffin. Well, the knowledge that a particular approach 
does not work is every bit as valuable a piece of knowledge as 
the knowledge that something does work.
    Senator Peters. Absolutely, yes.
    Dr. Griffin. I am not suggesting that we embrace stupid 
decisions. I am not going to that place at all.
    What I always tell my people is, every mistake you make, I 
want it to be a new mistake. Make a new mistake. Just do not 
repeat the old one, and we are good.
    Senator Peters. Right. As long as you are learning from it.
    I wanted to pick up on your comments related to speed as 
well. I think the other thing that I think was significant was 
where you said that everybody has access to this technology, 
which has changed so dramatically. The area that I have spent a 
lot of time on, being a Senator from Michigan, is self-driving 
vehicles and autonomy, which is moving I think a whole lot 
quicker than people realize as well. The race with the Chinese, 
Senator Perdue comments, I know they are at full speed on this 
as well.
    What people have told me about the power of the self-
driving cars is that, in order for it to work, you need to have 
further advances in artificial intelligence and machine 
learning that is able to process the massive amount of data 
that is coming in. In fact, it was described to me, in some 
ways, self-driving cars is the moonshot for AI [artificial 
intelligence]. When AI can pilot that car through a street here 
in Washington or New York City safely with all of those inputs, 
that means AI is ready for prime time in every single industry 
and will likely change everything about our world. That also 
means the future of warfare as well. I know the Chinese are 
working on that at a feverish pace as well.
    So I wanted to ask you about reports I have seen about the 
DOD and the intelligence community working to create a Joint 
Artificial Intelligence Center that will hopefully move us 
along quicker with some of these kinds of developments.
    I am currently working on some language for the NDAA 
provision that will create some flexibility so that we can move 
forward with AI and incorporate all that we are seeing on the 
commercial side into applications that will change the face of 
warfare in ways that I do not know that we can fully appreciate 
at this time.
    So my two questions are, first, can you speak to the 
reports of this joint AI center, and how we can help here on 
the committee to make that kind of effort a reality where we 
are coordinating our activities and taking advantage of what is 
available commercially?
    Dr. Griffin. In answer, sir, to that question, yes, the 
Secretary in his testimony, I believe just last week, committed 
to the development of a joint AI center, meaning across the 
services.
    Really, there will be elements of it across government. I 
think the DOD will take the lead. The organization of all that 
has not been finally decided, as you might appreciate. But the 
Secretary and the Deputy, I believe, had made the decision that 
there will be such a center. I am working right now with folks 
on my staff to answer questions, like who should lead it, where 
should it be, what projects should it do, and, most 
importantly, how does such a center fit into the overall AI 
strategy for the department and the Nation, because there are 
592 projects, I was told, in the department, which have AI as 
some piece of them. They do not all belong in the new AI center 
that we will create, but some of them do.
    We have things all the way from foundational research to 
practical applications to put in theater tomorrow. So we have 
to parse all that.
    We owe the Congress a report, I think about 2 months from 
now, on what our AI strategy will be. The JAIC, the Joint 
Artificial Intelligence Center, will be a part of that overall 
strategy.
    I better asked than answered your question.
    Senator Peters. No, it is good. Is there anything that we 
should be doing here in Congress to move this along?
    Dr. Griffin. No, I think we can do this with the 
authorities that we have. If we stumble across a regulatory 
issue where we need your help, I will be back on your doorstep 
in a heartbeat, because I agree, this is a critical area of 
research. If there is going to be a leader, we need to be that 
leader. We are not going to let this slip through the cracks.
    Senator Peters. Like most technologies, being first is a 
significant competitive advantage. But I understand, with 
artificial intelligence, it is beyond a significant competitive 
advantage. It may be everything, in a lot of ways.
    Dr. Griffin. Yes, I do not want to be in danger of getting 
overly occupied with the new shiny object. I think AI is 
critical.
    I think, frankly, we are going to have self-driving 
vehicles in theater for the Army before we will have self-
driving cars on the streets. But the core technologies will be 
the same. We in the DOD absolutely must leverage, I do not want 
to get into corporate names, but what the various companies are 
doing in developing self-driving cars.
    I will give you an example that I have heard the Secretary 
use, and I will put numbers on it. In theater, 52 percent of 
our casualties have been from soldiers basically delivering the 
mail, not literally the mail, but food, fuel, logistics, things 
like that. You are in a very vulnerable position when you are 
doing that kind of activity. If that can be done by an 
automated, unmanned vehicle with a relatively simple AI driving 
algorithm where I do not have to worry about pedestrians and 
road signs and all that, why wouldn't I do that? Well, I will.
    We do not have that capability yet, but that is the kind of 
thing that we could bring to bear fairly easily. And if you 
will forgive the expression, we do not have to solve world 
hunger with AI to be able to deliver a system that can deliver 
fuel.
    So that might be an early win for us. That is just one 
example.
    Senator Peters. Thank you. I appreciate it.
    Dr. Griffin. Thank you, sir. I thought that was a great 
question. Thank you, sir.
    Senator Ernst. That was very good.
    And thank you, Senator Peters.
    While we are talking about commercial technology as well, 
this is a nice segue. During World War II, as well, we saw that 
the United States needed to rapidly leverage the commercial 
industry to meet its wartime needs, and we were able to do that 
in World War II. The phrase ``battle of production'' 
encapsulated our ability to outproduce many of our adversaries. 
That was critical in securing our Allied victory.
    In future conflicts, the ability to out-innovate those 
adversaries--we have named Russia; we talked about China--they 
will be just as important. And we still do have a world-class 
tech sector. We really do.
    So what we would like to see is that we are able to take 
full advantage of that world-class tech sector. But 
unfortunately, there seem to be some gaps there where we are 
not able to tap into some of those technologies.
    So the department is starting to make an effort to engage 
the commercial sector and get into that innovation coming from 
places like Silicon Valley. We will not name any names out 
there. But they are trying to do that through organizations 
like the Defense Innovation Unit-Experimental, DIUx--you 
mentioned them earlier--and the department's Silicon Valley 
outreach office.
    So as we are trying to do that, what are the biggest 
barriers that you see with being able to reach that goal of 
utilizing those technologies that have been commercially 
developed?
    Dr. Griffin. One of the barriers that we have is that, 
whether in AI or any other kind of information technology type 
of thing, or whether in fundamental material science or 
microelectronics, most of the innovators are innovators in 
small companies. Most of those companies fail.
    I used to run In-Q-Tel. I would split time between
    Washington, D.C., and Silicon Valley. I had it an office on 
Sand Hill Road. In-Q-Tel, of course, is the CIA's venture 
capital company, if you want to put it that way.
    Nine out of 10 of these entrepreneurial companies fail, and 
that is a real statistic. They should fail. They were 
experiments that tried and did not work. But the ones that 
succeed become things like Google Earth or other huge successes 
that become household names.
    Well, the benefit for the department and for the U.S. 
Government more broadly is to be able to tie in on the front 
end of some of these things, because several of us have talked 
about how technology today is instantly available everywhere. 
Well, we do not want to be behind our adversaries in adopting 
the technology that we, this Nation, create.
    So the earlier we can get into the tech cycle in whatever 
field and work with those people and bring them into department 
utility, the quicker we will transition to the field. Well, how 
do we do that with young companies?
    You asked what the barriers were. The barriers are they are 
small, young companies. They cannot possibly afford the 
overhead of dealing with the DCAA [Defense Contract Audit 
Agency] accounting system. They cannot possibly afford the 
barriers of dealing with the DCMA [Defense Contract Management 
Agency] for contracts. I mean, it takes a full-time staff of a 
good-sized company to deal with that.
    So we have to have ways of interfacing with them that 
recognize where they are in the corporate lifecycle. They are 
not a large prime. If we want to take advantage of what we can 
bring, we have to work with them on their terms. That is what, 
for example, DIUx strives to do, but DIUx is a few tens of 
millions of dollars a year.
    This is really a cultural issue. We need, across the 
department, to learn how to become user-friendly in our 
contracting and financing, so that any piece of our department 
can work effectively with a new high-tech provider.
    Now U.S. Special Operations Command is an artist at this. 
SOCOM absolutely knows how to do this. DIUx is an excellent 
idea. I am fully supportive of it. But they are not the only 
place in the U.S. Government or even in the department that 
knows how to do this.
    These are the kinds of lessons that we need to promulgate.
    Senator Ernst. Very good. Thank you. My time is expiring, 
so, Senator Heinrich?
    Senator Heinrich. Secretary, I really appreciate your 
awareness that so many of these challenges are baked into 
culture as much as anything else.
    I want to give you an opportunity to talk a little bit 
about directed energy. I know you are passionate about it, as 
am I. I have a bunch of questions, but at the front end, I just 
want to provide you an open opportunity to tell me what you are 
excited about right now, where you think things are going, and 
how we are going to finally make that transition from R&D into 
procurement.
    Dr. Griffin. Thank you, Senator. I do appreciate the 
opportunity. So let me answer the last part first.
    The way to get from experiments into procurement of real 
live weapons systems is to say that is what we are going to do, 
appoint people to run those programs, and hold them accountable 
for delivery, and ask them every day, ``What is in your way 
that I can clear out?''
    The technology is there or almost there. I used an example 
earlier: Let me have 300-kilowatts on an Air Force tanker so 
that the tanker can defend itself, because that is a critical 
function in our maintenance of air superiority.
    And there are others. I am neither picking on the Air Force 
nor otherwise. It is just an example.
    I do not have a 300-kilowatt laser today. I have been in 
the directed energy community, at least on its periphery, for 3 
decades. The people that I talk to who are domain experts 
today, and from my own background, I can tell you that if we 
can persist for 5 or 6 years, we can have that laser. If we can 
persist for 10 years and maintain our focus, we can have the 
megawatt class space laser that I want. If I can persist for 
just a few years, I can have the laser that goes on an Army 
combat vehicle.
    You will notice that the key word there is ``persist.'' We 
have to set our goals and move toward them and weed out the 
funding for interesting ideas but which are not on the mainline 
of development and have people stick.
    So that is what it takes. That is the cultural behavior 
that it takes to get things to the field.
    I have already alluded to what level of performance we can 
have. Today, we have two very promising approaches, diode-
pumped alkali laser that are being developed at Lawrence 
Livermore lab by the DOE [Department of Energy]. I keep talking 
about across government. It is not just the department. The DOE 
is our ally in this. And we have fiber combined lasers being 
developed both by industry and by government laboratories. In 
particular, Lincoln labs has demonstrated 35 kilowatts of 
controlled power.
    You are getting very close there to something that will 
allow us to defend our forces.
    So we have good technology paths. We have good 
laboratories. We have a good industrial base. And you have 
somebody with me who wants to bring that to our troops.
    When I interviewed for this job with the Secretary, there 
was a comment he made that, until I either die or get 
Alzheimer's, I will not forget. He said to me, when I was in 
theater, I never had to have a fair fight. And he said, you are 
in charge of making sure that the future force never has to 
have a fair fight.
    To me, directed energy weapons are one of those ways that 
we do not have to have our guys, our partners, our allies have 
a fair fight.
    Senator Heinrich. That is right. This is the third offset, 
in terms of technology.
    As you identify those obstacles in the way, make sure that 
we know, so that we can help remove those obstacles.
    Dr. Griffin. You can count on it, Senator. Thank you.
    Senator Heinrich. In a related question, I want to ask you 
about the role of requirement setting.
    To put it simply, I think that the current requirements 
process is not designed for new ideas or new weapons systems. 
It is almost designed to impede the movement from well-
established systems to the next step. So talk to me about that 
a little bit.
    I guess I am running out of time.
    Senator Ernst. Go ahead.
    Senator Heinrich. How do you think the current process 
actually works? To me, it seems like it slows down our progress 
into these new systems. How do we fix that?
    Dr. Griffin. Well, from an engineer's point of view, we 
have requirements and capabilities backwards.
    If you are in the DOD acquisition cycle, the DOD Directive 
5000, et cetera, you have to have requirements before you can 
put out an RFP [request for proposal], before you can, before 
you can, before you can, move down the road. But the reality is 
that engineers really do not know what the requirements ought 
to be until they have built and tested something.
    Frankly, whether it is a piece of software or a new combat 
vehicle or a new pistol or whatever, you have to build it and 
try it out and fool around with it a little. I am sorry to be 
so colloquial, but that is how engineers really work in the 
real world.
    You [Senator Heinrich] are an engineer by training. I know 
you know what I mean.
    When I know about what the capabilities are that the 
current generation of technology will allow me to have, and 
when I have tried it out with a real operator, then I can sit 
down for you and write some requirements. But if I have to 
write the requirements first--despite what some think, I am not 
actually stupid. I am never, ever going to write a requirement 
for something that I do not already know I can do. Why would I 
do that? I am going to write a requirement for something I 
cannot get? That is just insane.
    So the requirements before capabilities process, what that 
does to you is it constrains your ability to innovate, to get 
anything that you do not already have, because you must be so 
conservative in your process. That is at the root of our 
difficulties.
    Senator Ernst. Mr. Secretary, we will do one more round. We 
have a couple more questions.
    We have talked about some of our adversaries, near-peer 
adversaries, and the technology that they have developed over 
the course of the last several decades. What can we as the 
United States be doing to make sure that we are tracking the 
advancements in technology that they have, as well as 
developing our own?
    What we really need to see is that the United States is, 
again, staying ahead of our near-peer adversaries. You just 
stated that we do not want to see our warfighters in a fair 
fight. So what can we do to make sure that we are outpacing our 
adversaries?
    Dr. Griffin. Well, certainly, our intelligence-gathering 
apparatus is critical to that. I met yesterday with some of my 
Title 50 colleagues. We need to take a whole-of-government 
approach on this.
    Within the USD(R&E), we have a group who are focused on 
protecting our own technology, making sure that foreign 
acquisitions are appropriately vetted against strategic 
considerations. We have to protect what we have while not 
impeding our ability to have our companies compete in the real 
world, because we cannot wall ourselves off and stay inside. We 
have to be prepared to compete. At the same time, we have to 
protect ourselves, and we have to do that in balance.
    But if you ask what we need to do to regain and maintain a 
technological advantage on our adversaries, frankly, we have to 
work harder; we have to run faster; we have to have more focus 
on what we want to do.
    No adversary of ours at present has directed energy systems 
of the type of which I was just speaking. We should be the 
first. We should be putting them in a position to catch up with 
us.
    I have mentioned you can find in public literature many 
references to the Chinese hypersonics capability development. 
Frankly, we were the leaders in that 10 and 15 years ago, and 
we just let it drop. We need to get started again.
    We need to shorten our test cycle timelines. I referred 
yesterday to an experiment called Flight Experiment-1 [FE-1] 
that the Navy did, a long-range conventional prompt strike 
experiment. It was, frankly, an experiment. It is not a weapons 
system yet. They did a brilliant job with it. I mean, I will 
not quote numbers, but I will just say that the impact accuracy 
was quite impressive.
    So in chatting with my colleagues at the senior levels of 
the Navy, I said, well, when can I have FE-2? When can I have 
FE-3? Why not next August? Why not this August?
    I mean, we need to finish the development of these systems, 
and it cannot be done at a leisurely pace, because our 
adversaries are not working at a leisurely pace. As much as 
anything else, it is the sense of urgency, Senator, that we 
really must get to this.
    Senator Ernst. Very good. I will just make a brief comment. 
I think we have talked a little bit about some of the issues, 
and what we have described as the Valley of death, actually 
taking that technology and getting it fielded for our 
warfighters. It seems like the overarching theme seems to be 
the persistence and funding.
    Would you state that that is accurate?
    Dr. Griffin. Senator, absolutely. Persistence in reaching 
the goals, knowable funding to reach the goals.
    I can deal with budget cuts. What I cannot deal with is 
surprises. Or I can, but the surprises become very expensive 
for you and insert delays for me.
    The other thing that I guess I would offer is we have to 
regain a cultural awareness that we have, as the National 
Defense Strategy states, global superpower competition again.
    I was once labeled by a political adversary as an 
unreconstructed cold warrior. I took that as a compliment, 
actually, though it was not meant that way. Much of my early 
career was in the Cold War. We understood for decades that we 
had an existential threat from a peer competitor, and 
Democrats, Republicans, did not matter, did not matter which 
presidential administration, we had for decades a united policy 
across government that we were going to contain the Soviet 
Union and we were going to win. And if we can restore that kind 
of thinking to a renewed global power competition, then we will 
actually never have to fight, because our adversaries will not 
want to take us on.
    So that is the kind of culture, those are the kinds of 
comments that I hear coming out of my leadership, which I would 
like to promulgate as well.
    Senator Ernst. Thank you. I appreciate it.
    Senator Heinrich?
    Senator Heinrich. Thank you for bringing a sense of urgency 
to all of this, because I very much agree that has oftentimes 
been the missing piece to all of this.
    I wanted to follow on to the question that Senator Perdue 
asked you. You did a really good job of articulating why 
testing is so important, and why you want to do testing very 
early in the process and not after you have a product that is 
supposed to work perfectly for folks in the field.
    Can you talk a little bit, too, just about how early and 
effective developmental testing also speeds up acquisition by 
discovering challenges early in the lifecycle and not after the 
fact?
    Dr. Griffin. Sir, I think you have pretty much done it for 
me. The truth of the matter is--Senator Ernst was just asking 
about persistence and funding, and how to get through the 
valley of death. My quick answer to that is, take your 
prototypes up to the level of being operational prototypes, not 
something I am going to produce but something a real operator 
can work with and help wring out the bugs so that I know what I 
want to produce.
    The more quickly that I can do that, and I will say outside 
the acquisition cycle--although, of course, it still is Federal 
acquisition of stuff with taxpayer money, but it is not in the 
production cycle. The quicker I can do that and figure out what 
I really want, then the speedier the whole acquisition process 
will be.
    The most expensive and time-consuming place to discover a 
mistake is after I have delivered a weapons system to the 
field.
    So when someone has spent the most enjoyable part of one's 
life as an actual engineer, you become humbled by the fact that 
you almost never do anything right the first time. It is a bit 
embarrassing because there are very few stupid engineers 
around, and all of us have advanced education, and you would 
like to believe that you can get something right the first 
time. You just cannot.
    Senator Heinrich. Experience does not support that.
    Dr. Griffin. Yes. So wring the mistakes out as early as 
possible. Work with us. Talk with us. Call us up to the Hill 
frequently and say, ``Hey, how are you doing on that Flight 
Experiment-2 that you just talked about with the Navy? How is 
that coming along?''
    Senator Heinrich. You mentioned a laser that DOE is 
developing. Before we let you go, is it easy enough to work 
across government? If DOE or the NNSA, the national security 
labs, are developing something that has direct application in 
DOD, do the authorities and the current ways of interfacing, do 
they support being able to work together? Or are there things 
that we need to change in the NDAA to make it easier to do that 
kind of work?
    Dr. Griffin. Senator, if I come across something that 
should go in the NDAA, that would enhance our ability to work 
across government, I and the department will come to you with a 
legislative proposal. I have spent decades in various agencies 
working with other agencies, to include at various times in 
various places NASA, National Reconnaissance Office, DOE, CIA 
[Central Intelligence Agency], DOD, of course, working in and 
with these various components of the government. When you get 
below the very political level and you start dealing with 
people whose focus is on the mission, I have never had any 
trouble at all.
    Senator Heinrich. That is good to hear.
    Dr. Griffin. It works well. I am not saying there are not 
stumbling blocks. It is always difficult for people to work 
together. But my experiences have been good ones, I will just 
say that, over the years.
    Senator Ernst. Thank you so much, Mr. Secretary. It has 
been a pleasure to have you in front of the committee. We 
appreciate you taking on these challenges for our men and 
women, whether they are on the frontlines or working in various 
places around the globe.
    We look forward to utilizing your expertise in the upcoming 
years, and I am anxious to see some of the great developments 
that will come through your work.
    Dr. Griffin. Well, you have given us a wonderful budget, 
and you have given us good regulatory authorities, and we have 
a great team. It is on us, and we hope to deliver.
    Senator Ernst. Outstanding. Thank you. This concludes the 
Emerging Threats and Capabilities Subcommittee.
    [Whereupon, at 3:30 p.m., the subcommittee adjourned.]

    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator David Perdue
    leveraging the cybersecurity expertise in the academic community
    1. Senator Perdue. Dr. Griffin, cybersecurity is a rapidly evolving 
field, as the number of threats from nation states, terrorist 
organizations, and individual hackers increase daily. These threats 
include proliferation of Internet of Things technologies, converged 
systems, and the vulnerabilities of machine learning applications. 
There is cutting-edge work in the academic community to understand 
state of the art cybersecurity capabilities and deliver new products to 
the Department. For example, in my state, Georgia Tech's Institute for 
Information Security and Privacy brings together computer scientists, 
electrical engineers, policy and international relations experts, and 
business professionals to gain a holistic understanding of 
cybersecurity challenges and develop technologies and policies to 
appropriately address these issues. How is the DOD, as well as each of 
the Services, leveraging the cybersecurity expertise in the academic 
community to prepare for both near- and long-term threats?
    Dr. Griffin Cybersecurity is one of my top 10 priorities for 
research and engineering. There are a variety of mechanisms we use to 
engage academia on this topic. A number of our University Affiliated 
Research Centers (UARCs) are engaged in cybersecurity activities with 
DOD and the Military Departments. Through the Systems Engineering 
Research Center (SERC) UARC, Georgia Tech Research Institute (GTRI) has 
collaborated with the University of Virginia to prototype system 
sensing technologies that monitor system operations for cyber threats. 
GTRI is also supporting an effort to shape future university 
engineering curriculum strategies to address engineering of cyber 
resilient weapon systems. The Department also engages universities 
using Broad Area Announcements. For example, Defense Advanced Research 
Projects Agency (DARPA), funded a four year project as part of the 
agency's Harnessing Autonomy for Countering Cyber-adversary Systems 
(HACCS) program. Finally, the Army Research Office, the Office of Naval 
Research and the Air Force Office of Scientific Research execute $46 
million in basic research related to cybersecurity through individual 
investigator and Multidisciplinary University Research Initiative 
awards at multiple universities.
     importance of maintaining basic research and applied research
    2. Senator Perdue. Dr. Griffin, while accelerating development of 
new technologies is often framed in terms of prototyping and 
demonstrations of mature capabilities, it is also important for the 
U.S. to continue to invest in long-term scientific research, DOD's 6.1 
basic research and 6.2 applied research, in order to be prepared for 
future threats and continue to maintain our high-skilled scientific 
workforce. What is the importance of maintaining a balance and ensuring 
continued support for 6.1 basic research and 6.2 applied research?
    Dr. Griffin I will support continued robust funding for basic and 
applied research in our 6.1 and 6.2 budget portfolios. The Department's 
past investment in basic research has been the foundation for many of 
the disruptive technologies utilized by our military and civilians 
today. While basic research attracts the brightest scientific minds to 
the fundamental questions in the Department's fields of interest, 
applied research allows those minds to begin to utilize that 
fundamental knowledge to address particular national security 
challenges. Additionally, early-stage research projects are a means to 
train students in fields essential to maintaining our future Defense 
workforce. Robust applied research funding helps to more quickly 
prototype and provide options to programs of record to meet defense 
needs. While the Department places a strong emphasis on delivering new 
technologies in the near term, we must also not lose sight of longer 
term challenges that basic and applied research address.
                               __________
                Questions Submitted by Senator Ted Cruz
                              small launch
    3. Senator Cruz. Dr. Griffin, as you know, much of our warfighting 
advantage resides in the strength and capability of our space-based 
satellite assets. However, our adversaries are quickly catching up in 
terms of both their own satellite constellations and their ability to 
threaten and degrade our own space capabilities. The need for new 
responsive access to space and diffuse constellations to improve 
resiliency has been noted by many experts both inside and outside 
government. However, until very recently, the United States has not had 
many options to efficiently and affordably put such small sat 
constellations into space, not to mention in the case of need of rapid 
re-constitution in the face of conflict. Over the last several years, 
new U.S. small launch systems have been developed, including companies 
like Firefly Aerospace in Texas.
    Can you describe for us how small launch fits into DOD's list of 
needed next generation capabilities and how is DOD supporting the 
emerging U.S. small launch providers? What more can be done to support 
and perhaps accelerate the development and fielding of this technology? 
And how can we on-ramp these capabilities more quickly and tap into new 
innovations from small launch providers?
    Dr. Griffin DOD space access capability is provided through Evolved 
Expendable Launch Vehicle. Alternative small launch capability would be 
procured through the private sector. FMR 7000.14-R, Vol 11A, Ch 13 
allows U.S. private sector use of DOD space related facilities, 
including Major Range and Test Facility Base, at direct costs accrued 
in supporting the commercial space activity. ``Direct costs'' are the 
actual costs that are directly attributable to the use of the facility, 
over and above the indirect costs. This enables small launch providers 
access to an existing broad range of space related facilities and range 
infrastructure.
                               __________
             Questions Submitted by Senator Jeanne Shaheen
                     cold weather conflict research
    4. Senator Jeanne Shaheen. Dr. Griffin, the personnel at the U.S. 
Army Cold Regions Research and Engineering Laboratory (CRREL) in 
Hanover, New Hampshire conduct valuable research with the goal of 
improving the readiness of the U.S. military by enhancing its ability 
to effectively operate in cold weather environments. What is the status 
of DOD cold weather-related research, as well as your assessment of its 
importance in preparing our forces to operate in such an environment?
    Dr. Griffin The U.S. Army Cold Regions Research and Engineering 
Laboratory (CRREL) conducts research on cold region dynamics to provide 
both on-site engineering solutions and strategic problem-solving for 
the future. CRREL focuses particularly in the areas of terrain 
composition (with a focus on permafrost), infrastructure stability and 
resiliency, and testing for equipment and platforms intended for cold 
weather use. They conduct their work in partnership with other DOD 
stakeholders such as the Office of Naval Research, the U.S. Army 
Institute for Environmental Medicine, and the Navy's Experimental 
Diving Unit. This is a joint effort to further DOD's cold-weather 
capabilities. Recently, my office and USNORTHCOM hosted a workshop with 
researchers, service members, and Arctic professionals, where they 
discussed priority requirements, current S&T investments, and gap 
areas. This workshop underscored how existing investments are critical 
enablers for military training, exercises, and operations that could 
occur in high-altitude environments, the Arctic, and other areas 
characterized by extreme cold or winter weather.
                             small business
    5. Senator Jeanne Shaheen. Dr. Griffin, as you know, small 
businesses in this country are the engines of innovation and job 
growth. The Senate Armed Services Committee has routinely heard that 
the Small Business Innovation Research (SBIR) program is an essential 
mechanism for DOD to develop new technologies that help the warfighter 
and support our national defense. One of the criticisms that is often 
made of the defense research enterprise is that new technologies do not 
transition in an effective or efficient manner. There does not seem to 
be an effective mechanism to transition a program of record or transfer 
to a private sector firm. How does the SBIR program help to transition 
technologies to, ultimately, get them to our warfighters--and do you 
agree that SBIR should be made permanent?
    Dr. Griffin The SBIR program seeds and grows technology options for 
consideration by Programs of Record and our Prime Contractors. The SBIR 
program seeks to mature technologies and reduce the development risk as 
much as possible. However, SBIR is a Research & Development program and 
by that nature, many technologies never mature to a level that enables 
them to be transitioned.
    Yes, SBIR should be made permanent.
    Making these programs permanent would allow for consistency and 
remove uncertainty about the long-term support for this critical driver 
of innovation for DOD and job growth for the country. Permanency also 
improves the ability for the DOD consumers of SBIR/STTR technology 
solutions (programs of record, PEOs prime contractors and others) to 
plan for technology integration and insertion.
                      technology transition speed
    6. Senator Jeanne Shaheen. Dr. Griffin, I am a member of the Senate 
Appropriations Committee. Are there changes to the appropriations 
rules, as well as other budgeting and financial management tools, which 
could be used to speed up technology transition?
    Dr. Griffin Part of maintaining our technological advantage is not 
only promoting aggressive technology investments but also transition 
them into capabilities at a speed of relevance. Adequate funding 
flexibilities for these types of efforts remains a challenge.
    The new statutory authorities associated with ``middle-tier 
acquisition pathways'' (Fiscal Year 2016 NDAA Section 804 Rapid 
Prototyping and Rapid Fielding) and the Acquisition Agility Act (AAA) 
(fiscal year 2017 NDAA sections 805-809) will help technology and 
prototype transition, however, dedicated funding for these new rapid 
prototyping/rapid fielding authorities has not been appropriated to 
date. A flexible funding account for integration, experimentation, and 
testing in support of transitioning successful technologies and 
prototypes into major acquisition programs would also assist.
    Another challenge associated with transition of successful 
technologies into a program is the impact on the program baseline. 
Rapid response to unexpected threats or game-changing technology can in 
some cases drive costs that may breach the initial acquisition program 
baseline. Although the intelligence, requirements, and acquisition 
communities cooperate to identify and address threats, it is impossible 
to be fully predictive. Amending Nunn-McCurdy breach language could 
avoid penalizing programs trying to incorporating new technologies. 
Exempting major acquisition programs that successfully incorporate a 
modular, open systems approach (fiscal year 2017 NDAA section 805) will 
enable these programs to incorporate new technology without additional 
administrative overhead.
                               __________
           Questions Submitted by Senator Kirsten Gillibrand
  use of defense production act for scaling up production of defense 
                              technologies
    7. Senator Gillibrand. Dr. Griffin, far too many American start-ups 
working on cutting-edge technologies with applications important to our 
defense mission are having a difficult time accessing investment to 
scale their research to production. This financing gap has led some of 
our most innovative firms to turn to foreign investors, which offshores 
production and undermines our ability to protect military technologies. 
What role do you think the Department of Defense might play in 
addressing this national security challenge?
    Dr. Griffin A healthy manufacturing and defense industrial base is 
essential to the economic strength and national security of the United 
States. DOD will continue to seek to capture and transition innovative 
ideas into military capabilities. In addition to the Defense Innovation 
Unit Experimental (DIUx), which seeks to bridge the gap with start-ups, 
DARPA is providing its Program Managers with mentoring and support to 
help them navigate the venture capital world and increase the 
likelihood of transitioning ideas into commercially viable product. I 
will seek to increase DOD's engagement with all sources of innovation, 
as these software and hardware start-ups underpin our modernization 
priorities.

    8. Senator Gillibrand. Dr. Griffin, could the Defense Production 
Act's Title III financing authorities be put to greater use for helping 
scale up production of defense technologies?
    Dr. Griffin The Under Secretary of Defense for Acquisition and 
Sustainment (USD(A&S) provides oversight on behalf of the Secretary of 
Defense for the Defense Production Act Title III. I support her efforts 
to expand the program by utilizing the full breadth of the authorities, 
including loans and purchase commitments, and make the program nimble 
by leveraging military services or field agencies in the execution 
Title III projects that address their identified critical technology 
needs. Further, I strongly support her efforts to remove the $50 
million cap on each Title III project and the $133 million/yr limit on 
DPA Title III appropriations as it allows DPA Title III to address 
capital intensive follow-on commercialization projects to Research and 
Engineering efforts like strategic radiation hardened microelectronics 
and hardware integrity and security projects that can total well over 
$50 million.

    9. Senator Gillibrand. Dr. Griffin, will you commit to looking with 
my staff at the issue of the potential role of the Defense Production 
Act's Title III financing authorities in scaling up production of 
defense technologies?
    Dr. Griffin I will work with your staff as appropriate to identify 
the Department's opportunities to scale up production of defense 
technologies.
             manufacturing usa's role in defense production
    10. Senator Gillibrand. Dr. Griffin, I believe the Manufacturing 
USA Network is critical to ensuring the United States remains a global 
leader in manufacturing the cutting-edge technologies needed for our 
national defense. Part of this bipartisan program's mission is to use 
these public-private partnerships to develop and commercialize new 
defense technologies that are critical to our men and women in uniform, 
like 3D printing and smart sensors. As you know, the Defense Department 
is leading 8 of the 14 current institutes within the network, including 
one focused on integrated photonics located in Rochester, NY. Now that 
you have been on the job for two months, what plans do you have in mind 
for how the Manufacturing USA network can be used to strengthen our 
defense production capacity, including preparing our workforce with in-
demand skills for advanced manufacturing, accelerating technology 
transition, and assisting our startup companies and small manufacturers 
in scaling up production?
    Dr. Griffin The Manufacturing USA Network of 14 innovation 
institutes is in the midst of a successful initial operating phase, 
developing capability of importance to the Department. Continued DOD 
involvement in the Manufacturing USA Network protects are equities and 
enables further development of defense critical technologies into 
affordable, domestic defense products across fourteen broad technology 
areas, eight of which we have co-sponsored. To date, the DOD has 
invested over $600 million to establish key innovation hubs for 
additive manufacturing; digital manufacturing, design and 
cybersecurity; lightweight and modern metals; integrated photonics; 
flexible hybrid electronics; revolutionary fibers and textiles; 
regenerative tissue manufacturing; and advanced robotics. The state-of-
the-art integrated photonics test, assembly and packaging facility is 
opening soon in Rochester, NY and is a great example of the 
collaborative manufacturing innovation ecosystems the DOD and in this 
case, the New York state government which is also investing to 
strengthen both commercial and defense production capabilities. Long 
term engagement with the Manufacturing USA Network will allow DOD to 
reap the benefits of these substantial investments in pre-competitive, 
applied R&D. Manufacturing USA constitutes a key component of the 
SECDEF's vision of a National Technology Innovation Base. The advanced 
manufacturing ecosystem development and collaboration that these 
institutes foster helps ensure that key advanced technologies that are 
invented here are manufactured here. Together with our agency partners 
at DOE, DOC (NIST), NASA, USDA, DOL, and DoEd, we will continue to 
engage with small and medium sized manufacturers, identify scale-up 
opportunities important to DOD needs, accelerate technology transition 
domestically, and help train the advanced manufacturing workforce of 
the future.
              technology accelerator and transfer programs
    11. Senator Gillibrand. Dr. Griffin, the Department of Defense's 
MD5 National Security Technology Accelerator located at New York 
University is building a national network of civil-military 
partnerships in technology R&D to support entrepreneurs both within and 
outside of DOD in successfully developing, commercializing, and 
applying technology relevant to the military. Do you see an expanded 
role for MD5 in addressing the ``valley of death'' concerns faced by 
our military?
    Dr. Griffin Like most of our innovation program offices, MD5/NSTA 
is providing real value, both to the Department and the broad array of 
non-traditional partners with whom it interacts. Although I believe the 
Department needs to evaluate MD5/NSTA as part of a broader, holistic 
discussion related to program priorities and attendant resources, I 
believe MD5/NTSA is a key player in addressing, and hopefully 
eliminating, the ``valley of death'' and delivering crucial new 
technology to the warfighter. I plan to ensure that MD5/NSTA is 
organized with mutually supporting innovation programs as I finalize 
the organizational structure of the new Office of the Under Secretary 
of Defense for Research and Engineering (OUSD(R&E)) to enhance the 
scope, capabilities and mutually supporting efforts of MD5/NSTA and 
other defense innovation entities.

    12. Senator Gillibrand. Dr. Griffin, recently the Advisory Panel on 
Streamlining and Codifying Acquisition Regulations, otherwise known as 
the section 809 Panel, made a series of recommendations for how to 
strengthen the Small Business Innovation Research and Small Business 
Technology Transfer (SBIR-STTR) and the Rapid Innovation Fund (RIF) 
Programs that are vital to technology research, development, and 
commercialization. Do you believe the Defense Department is making full 
use of the SBIR-STTR and RIF programs to leverage small businesses in 
advancing the development and production of technologies?
    Dr. Griffin I think the Department is making full use of the SBIR/
STTR and RIF programs within the current limitations of the law. 
However, three changes would certainly allow the Department to make 
better use of the SBIR and STTR programs: (1) make the SBIR and STTR 
programs permanent; (2) remove the restriction against using SBIR or 
STTR funds for administrative purposes and (3) restore and make 
permanent the Phase Flexibility (also known as `Direct to Phase II') 
provision, which provides the ability to shorten the development cycle 
for critical technology solutions.
    I will continue to review the current programs to identify 
opportunities for improvement to ensure we utilize these programs 
effectively to advance the development and production of technologies.

    13. Senator Gillibrand. Dr. Griffin, what reforms do you believe 
are needed to strengthen the SBIR-STTR and RIF programs to help small 
companies and entrepreneurs commercialize technologies and get them 
into the Defense Department's acquisition pipeline?
    Dr. Griffin The SBIR and STTR programs support our ability to work 
with small business across the nation to develop cutting edge solutions 
for difficult problems facing our warfighters. As stated earlier, 
restoring the Phase Flexibility, or Direct to Phase II, authority would 
help small companies and entrepreneurs step into the process closer to 
commercialization. This authority did shorten the development time for 
technologies to transition to Phase III funding and encourages 
companies with more mature technologies to participate in the program, 
further enhancing the technical solutions available to DOD. As an 
example, the Air Force used this authority to develop new technologies 
to leverage commercial satellite imagery and to develop new hand-held 
devices for dismounted navigation in a GPS-degraded environment.
    Another change would be to allow DOD Components to award additional 
Phase II efforts, beyond the current limit of two per topic per small 
business, on topics developed by other Federal Agencies or DOD 
Components. Components have become effective taking technologies 
developed by others and adapting them for their own requirements to 
reduce costs, time and risks. This change would allow DOD Components to 
make better use of limited budgets to support their customers.
                               __________
             Questions Submitted by Senator Martin Heinrich
                            directed energy
    14. Senator Heinrich. Dr. Griffin, thank you for your comments at 
the hearing on the need for the Department to ``persist'' with regards 
to directed energy weapons in order to cross the threshold from R&D to 
procurement. I agree, and I want to restate the following points I made 
at this year's 2018 Directed Energy Summit, which I believe are 
critical for transitioning these technologies.
    We need senior level officials at the Pentagon to identify 
capability gaps and know where directed energy can be a solution. We 
need senior officials at the Pentagon to help push the Joint 
Requirements Oversight Council and the military services to recognize 
the benefit of directed energy weapon systems when they write military 
requirements. We need senior level officials at the Pentagon to take 
ownership of directed energy in budget deliberations and program 
funding battles. And we need senior level officials to speak up for 
directed energy when Analysis of Alternatives are occurring.
    As the DOD Senior official for directed energy, what near-term 
actions will you take to potentially increase investment and speed 
transition of directed energy weapon systems?
    Dr. Griffin The Department is making every possible effort to field 
DE capabilities; however, we cannot field these capabilities before 
they are ready, which includes having a mission, or a range of 
missions, where DE provides the competitive advantage to our 
warfighter. Over the past year, AT&L and CAPE jointly went through an 
assessment of current state of the art in High Energy Lasers (HEL) as a 
capability to do a variety of missions. We continue to reassure all the 
stakeholders that DOD has a pretty good understanding of where we stand 
in both the technology and the mission space. As a result of our 
analyses, we are initiating new efforts to scale up electrically 
powered lasers to levels that do not currently exist. In standing up 
the Office of USD(R&E), we are having productive engagements with all 
stakeholders, and looking to a future where DE weapons including High 
Power Microwaves are a reality that supports the missions that provide 
competitive advantage to DOD. We must be partners in building an 
industrial base capable of building and delivering critical components 
affordably and timely to accelerate the fielding of these systems.

    15. Senator Heinrich. Dr. Griffin, as you know, this committee 
recently designated the Joint Directed Energy Transition Office and 
established a new prototyping and demonstration program at the 
pentagon, of which you will be in charge, to accelerate the transition 
of directed energy weapons. As the Senior Official with responsibility 
for transitioning directed energy weapon systems, who in your 
organization will handle the directed energy testing and transition?
    Dr. Griffin As we fully implement the reorganization plans, I will 
have oversight of the entire spectrum for research and development. The 
Joint Directed Energy (DE) Transition Office will continue to focus on 
basic and applied research to develop fundamental technologies 
necessary for our DE systems. The components will perform the 
prototyping and experimentation with support from my office to validate 
we are building the capabilities we need, at the costs we can afford, 
and with the agility and speed necessary to meet the warfighter 
requirements. As part of the directed designation, the transition 
office will assist the components in transitioning those validated 
capabilities.

    16. Senator Heinrich. Dr. Griffin, what role does the newly 
designated Joint Directed Energy Transition Office play within your 
portfolio and how will you resource that office?
    Dr. Griffin As I described earlier, the Joint DE Transition Office 
will provide oversight and synchronization of the fundamental 
technologies needed to build our systems, provide support to the 
Components in the prototyping and experimentation efforts, and support 
the transition of capabilities that demonstrate their readiness to 
transition into programs of record. I would like to emphasize, 
transitioning these systems also require support from the industrial 
base. We must be partners in building and delivering critical 
components affordably and timely to accelerate the fielding of these 
systems.

    17. Senator Heinrich. Dr. Griffin, this year's budget request 
refreshed a heritage PE for High Energy Laser Advanced Development, 
requesting $69.53 million for PE 0603924D8Z. Who within the DOD would 
be the executing agent for this line?
    Dr. Griffin This PE will be managed and executed out of my office 
starting in fiscal year 2019. There is a proposed fiscal year 2018 
Enhancement in response to the Bipartisan Budget Act of 2018 for $36 
million. This program complements, and is closely coordinated with, 
other DOD HEL efforts directed at specific Service and Agency missions. 
This effort will scale the output power of HELs to reach operationally 
effective power levels applicable to broad mission areas across the DOD 
and pursue improvements in common HEL system components, such as 
efficient laser pump diodes for increased electrical-optical 
efficiencies and efficient light-weight thermal management approaches 
and/or power supplies.

    18. Senator Heinrich. Dr. Griffin, what are your plans for the 
position of Assistant Secretary of Defense for Research and 
Engineering?
    Dr. Griffin The Secretary of Defense will soon make the final 
decisions on the detailed implementation plan for the reorganization of 
the office of the Secretary of Defense, and specifically the split of 
the USD(AT&L). I would like to avoid getting ahead of the Secretary and 
his communication with this committee and other members of Congress on 
the specifics of that plan, but I can share that the responsibilities 
of the ASD(R&E) will transition to the new offices we are establishing. 
Our emphasis on separating research and technology, and advanced 
capabilities will focus the efforts across the spectrum from science 
and technology, to prototyping and experimentation.

    19. Senator Heinrich. Dr. Griffin, what is the status of the Joint 
Directed Energy Test Center report?
    Dr. Griffin The report has been completed by the Test Resource 
Management Center and is under review. Upon review completion, it will 
be submitted to the Senate Armed Services Committee.
                          role of defense labs
    20. Senator Heinrich. Dr. Griffin, the 2017 Defense Science Board 
study on the Defense Research Enterprise noted that ``The DOD Labs 
contain the bulk of technology and engineering expertise of the 
Department, almost 40,000 scientists and engineers. This is the core 
muscle the Department has to create, transition, and deploy technology 
to the warfighter.''
    How do you plan to use the Labs to lay a bigger role in rapid 
technology transition of both defense-unique and commercially available 
technologies into defense acquisition programs or operational use?
    Dr. Griffin The DOD laboratory enterprise and our scientists and 
engineers are the core of our research and development programs. The 
work they are doing for our warfighters is having an impact on 
capability development. We must continue to enable rapid technology 
transition by focusing on prototyping, experimentation, and 
demonstration processes to ensure effective dialogue between the 
research and development enterprise and the acquisition programs of 
record. Recent authorities in fiscal year 2016 and 2017 NDAAs provide 
pathways to prototyping technologies outside programs of record, which 
enable much more rapid assessment of viability and a greater 
opportunity to leverage the expertise of the DOD Labs. Close dialogue 
and coordination by our laboratories, acquisition community, and 
private sector is necessary for expeditious deployment of new 
technologies in the face of an ever-changing battlefield environment 
for our Warfighters.
                role of funding and budgeting processes
    21. Senator Heinrich. Dr. Griffin, in terms of the defense budget 
and Congress, the way we appropriate funds is no way reflective of the 
speed at which threats and technologies move. Too many good ideas die 
on the vine while waiting for DOD to get the right money into the right 
account, with the right rules according to various financial management 
and appropriations laws and regulations.
    What changes would you recommend both to slow-moving DOD budgetary 
processes and to congressional procedures that might help speed up 
technology transition processes, while still preserving accountability 
and transparency that taxpayers deserve?
    Dr. Griffin The two-year planning and programming budget cycle does 
not lend itself to support rapid transition of successful technology 
into capabilities because of the inherent uncertainty. Results of an 
S&T effort are unpredictable; therefore, budgeting for a transition 
pathway is difficult. An efficient, flexible, and expedient means to 
re-align funds within an organization would alleviate this issue.
    To enable the Department to take advantage of innovative 
technologies and effectively transition them to the warfighter in a 
timely manner, flexible funding accounts for rapid prototyping, 
experimentation, integration, and testing should to be appropriated at 
both the Department and Service levels. This will enable the Department 
to bypass the slow-moving DOD budgetary processes. Flexible funding 
accounts could speed up the transition and fielding of successful and 
promising technologies.
    Below threshold reprogramming (BTR) limits are also barriers for 
technology transition. Current BTR limits restrict Service program 
sponsors ability to test, integrate, and procure new major components 
for a program of record. Modifying the current BTR language to increase 
the limits would allow the restructuring of the program to integrate, 
test, and field improved performance upgrades much sooner. Conversely, 
waiting for formal Congressional reprogramming or traditional budgeting 
procedures could delay these upgrades by up to two years. Additional 
reporting mechanisms in Fiscal Year 2017 NDAA Acquisition Agility Act 
which will ensure Congress and the Department leadership are aware of 
impending program changes.
    In addition, my organization is completing an assessment in support 
of the fiscal year 2018 NDAA section 232 ``Review of Barriers to 
Innovation in Research and Engineering Activities of the Department of 
Defense.'' We may have additional recommendations to financial 
management and budget barriers to technology transition.
     national math & science initiative's college readiness program
    22. Senator Heinrich. Dr. Griffin, I recently visited Cannon Air 
Force Base where I heard about the National Math & Science Initiative's 
College Readiness Program. This program aims to improve the quality of 
school districts that serve military installations by training teachers 
to teach STEM AP exams. The program increases the number of students 
taking those classes and more than doubles the rate of qualifying 
scores. This helps military installations retain their personnel by 
making sure local schools are serving military families well. The 
communities benefit because by focusing on teacher training, the 
program benefits all students, not just DOD dependents. While the 
program has been implemented in one thousand schools, only one such 
program has run in NM, at Alamogordo High School. I am excited to see 
this program come to qualifying schools that serve White Sands Missile 
Range and Cannon High School. What will your office do to increase the 
number of students this program can reach?
    Dr. Griffin The Department of Defense partnered with the National 
Math and Science Initiative (NMSI) since 2009 to reach military-
connected high schools to enhance the preparation of military children 
for careers in STEM through AP math and science courses. NMSI's College 
Readiness Program (CRP) has been implemented in 217 military-connected 
schools serving 93 military installations to date. In the 2018-19 
academic year, DOD will support the implementation of the CRP in 19 new 
military-connected high schools across the Nation. The Department 
continues to consider the viability of the NMSI program in addition to 
other efforts supporting military children to maximize their impact. 
Although the 2018-2019 cohort does not include any qualified schools 
serving White Sands Missile Range or Cannon High School they could be 
considered as part of a future implementation of the program.
                             basic research
    23. Senator Heinrich. Dr. Griffin, what is the role of university 
research and investment in basic science in supporting our 
technological superiority? What areas of basic research are you worried 
about in terms of underfunding within the U.S.?
    Dr. Griffin Basic research investments answer fundamental 
scientific questions which can lead to groundbreaking discoveries, 
providing the foundation for future defense-related technologies. The 
Department recognizes that much of this discovery is made by the 
academic community. In fact, the Department is now the third largest 
investor of basic science funding at universities. I believe it is 
critical to engage with the academic community to build on this 
partnership so that universities better understand the Department's 
needs and to leverage these groundbreaking research findings. While I 
believe that robust funding for basic research is needed across the 
scientific disciplines, I particularly support basic research funding 
in areas that provide the foundations for the Department's 
technological priority areas including but not limited to artificial 
intelligence, quantum information science, research setting the 
foundations for hypersonics, future computing capabilities, materials 
science, synthetic biology, oceanography, and social science. Research 
programs in these areas are critical to supporting the Department's 
superiority.
  developmental test & evaluation and test resource management center
    24. Senator Heinrich. Dr. Griffin, what are your plans to support 
your office's Development T&E staff and the TRMC to support your 
efforts in maintaining our ability to deliver operational capabilities 
as quickly as possible?
    Dr. Griffin I strongly agree we need to deliver operational 
capabilities quickly. Both the Developmental T&E staff and the TRMC are 
dedicated to this goal. Here are some of the specifics of my plan to 
accomplish this.
    The Developmental T&E Staff is committed to a ``Shift Left'' test 
approach concentrating on collecting and evaluating test data as early 
as possible in the acquisition process to reduce late discovery of 
deficiencies and the costly need for re-design. Key to this effort is 
the development and approval of the Test and Evaluation Master Plan 
(TEMP), which DT&E and DOT&E work in collaboration with the program 
offices to build. The TEMP lays out the strategy for testing weapon 
systems and identifies the test infrastructure and capabilities 
necessary to achieve that goal. The DT&E staff work closely with the 
programs to ensure: 1) test activities are integrated into the schedule 
as early as possible, 2) contractor and other test data is used where 
possible to reduce duplicative testing, 3) joint DT/OT events are 
maximized to further reduce duplication and test costs, and 4) test 
feedback is shared with the program offices as early as possible. DT&E 
also works closely with counterparts in the TRMC to ensure any test 
infrastructure limitations or test needs are identified clearly in the 
TEMP.
    The Test Resource Management Center is an important organization 
for ensuring the DOD's T&E workforce and infrastructure are modernized 
and ready to support the testing of our weapon systems. TRMC 
continually anticipates T&E infrastructure needs early in the 
acquisition process through its collaborative strategic planning 
process with the Services and OSD components and develops test 
infrastructure roadmaps to highlight key deficiencies that need to be 
addressed to support upcoming programs of record. Previous roadmaps 
have been key to the early resourcing of T&E capability gaps in 
electronic warfare testing, hypersonic ground testing, and threat 
models. New roadmaps will address further T&E shortfalls in Hypersonic 
open air testing, Cyber effects testing, EW threat integrated air 
defenses, big data concepts, and others.
    In addition to planning, the TRMC also manages 3 key programs to 
ensure the test infrastructure is ready to support testing of our most 
advanced weapons systems. TRMC's Test and Evaluation/Science and 
Technology (T&E/S&T) Program matures test technologies from TRL 3 to 
TRL 6 so they can be transitioned into T&E capabilities in our test 
ranges around the country. The T&E/S&T program looks forward at the 
advancement of the Department's acquisition programs and technology 
demonstrators to anticipate technologies needed to test our next 
generation weapon systems. Technology transition rates for the program 
are well in excess of 50 percent due to the tight coupling of the 
technology maturation efforts and the work that is done to ensure test 
infrastructure projects are aligned to integrate them. A particularly 
relevant example is the $100 million plus of investments T&E/S&T made 
over the past decade to prototype test capabilities key to advancing 
DOD hypersonic programs. T&E/S&T was the forerunner in developing a 
hypersonic test roadmap and it was due to these efforts and investments 
the TRMC was able to secure $350 million via a Resource Management 
Decision (RMD) to implement these technologies on our test ranges. The 
technologies matured by the T&E/S&T program are now being inserted and 
implemented at Arnold Engineering Development Center to produce ground-
based test capabilities absolutely critical to fielding hypersonic 
weapon systems. Due to the forward looking nature of the TRMC and the 
timeliness of these key investments, the Department will save billions 
of dollars and years of schedule in developing hypersonic weapon 
systems.
    The TRMC fields major test instrumentation to the Services' test 
ranges via the Central Test and Evaluation Investment Program (CTEIP) 
which focuses on developing high priority multi-service T&E 
capabilities. As technologies are matured via the T&E/S&T program, 
CTEIP adopts those technologies to field needed test capabilities. As 
the Department looks for ways to accelerate the acquisition of weapon 
systems, the TRMC also seeks to accelerate the process by which test 
capabilities are fielded as the T&E community must constantly keep pace 
and, in many cases, lead the development cycle. Over the past several 
years, CTEIP has begun using more streamlined acquisition approaches 
such as those offered under the Defense Ordnance Technology Consortium 
(DOTC) and Other Transaction Authorities (OTAs) to speed contracting 
and development processes. These approaches have worked well for CTEIP 
and have enabled the TRMC to field test capabilities to the Services as 
much as three times faster than traditional contracting approaches. 
Additionally, these strategies have enabled TRMC to be much more 
responsive to the fast moving world of cyber threats and have provided 
a much quicker reaction time for responding to unanticipated critical 
operational test shortfalls identified by DOT&E. Under my leadership, 
the TRMC will continue to pursue streamlined acquisition approaches 
like these as a ready and adequate test infrastructure is absolutely 
critical for testing and fielding DOD weapon systems.
    Lastly, the use of distributed testing has proved to save both time 
and money for the Department and avoids the Services from building 
duplicative capabilities across the country. The TRMC operates a third 
program, the Joint Mission Environment Test Capability (JMETC), to 
maximize distributed testing capabilities by connecting existing 
laboratories, hardware in the loop facilities, installed system test 
facilities, and open air range capabilities around the country. JMETC 
and the TRMC establish standards and develops common interfaces, 
promoting interoperability and enabling maximum re-use of the 
Department's key test facilities. Test resource dollars are limited and 
the TRMC maximizes those resources by encouraging the development and 
adherence to those standards which ultimately avoids duplication, 
reduces test time, and makes test capabilities more sustainable.
                            foreign students
    25. Senator Heinrich. Dr. Griffin, many foreign students study in 
STEM fields in this country and could potentially contribute to 
national goals, but they often are forced to return to their home 
country because of visas or because of an increasing number of good 
employment options overseas and in their home countries. In fact, many 
of these students are funded by DOD grants and research programs. How 
can DOD appropriately make better use of the foreign STEM talent that 
is studying and working in the U.S.?
    Dr. Griffin The Department has long benefitted from the talents of 
foreign students and some of the best minds in the world that come to 
the U.S. to work with other top scientists. Foreign graduate students 
contribute to our economy, teach our undergraduates, and make 
impressive research discoveries here in the United States. The 
Department should continue to identify and hire the best and brightest 
minds from around the world to address fundamental research challenges 
of interest to our national security. Maintaining strong, stable 
funding for defense research is part and parcel to our success in this 
mission. We need to work with the State Department, the academic 
community and other stakeholders to identify ways we can take advantage 
of the tremendous talent educated in the U.S. while maintaining a 
reasonable balance to avoid unintended transfer of research and 
knowledge on critical technology areas important to the Department.

                                 <all>
</pre></body></html>
